TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Revenue Officers Took Appropriate Levy
                    Actions but Face Challenges and Delays
                     Bringing Taxpayers Into Compliance



                                       November 21, 2011

                              Reference Number: 2012-30-007




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                      HIGHLIGHTS


REVENUE OFFICERS TOOK                                    FY 2000. However, the ROs have increased the
APPROPRIATE LEVY ACTIONS BUT                             number of levies in each year since FY 2003,
FACE CHALLENGES AND DELAYS                               including a 73 percent increase from FY 2009 to
BRINGING TAXPAYERS INTO                                  FY 2010. During FY 2010, the ROs issued
                                                         approximately 667,000 levies.
COMPLIANCE
                                                         TIGTA reviewed a statistical sample of 60 RO
                                                         cases involving levy actions and determined RO
Highlights                                               actions were appropriate and complied with IRS
                                                         procedures and statutory requirements.
Final Report issued on                                   However, TIGTA identified several barriers that
November 21, 2011                                        limit the impact the levy actions have on
                                                         taxpayer compliance. Specifically, levy
Highlights of Reference Number: 2012-30-007              notification and the Collection Due Process can
to the Internal Revenue Service Commissioner             postpone collection actions; taxpayer privacy
for the Small Business/Self-Employed Division.           rights limit RO access to taxpayer financial
                                                         information; strict timing requirements result in
IMPACT ON TAXPAYERS                                      multiple repeat levy actions; and the ROs must
                                                         rely on third parties, such as banks and
When taxpayers owe delinquent taxes, one of
                                                         employers, to comply with levy notices.
the collection tools available to the IRS is the
levy. Although levy authority is a useful tool,          To help improve the process and help taxpayers
there are limitations and challenges that can            become compliant, the IRS is preparing a
diminish its effectiveness for collecting unpaid         legislative proposal that will expand continuous
tax. If the IRS does not effectively pursue              levies to include additional income sources,
collection of unpaid tax, it could create an unfair      such as rental income and non-employee
burden on the majority of taxpayers who fully            compensation.
pay their taxes on time.
                                                         TIGTA also reviewed a statistical sample of
WHY TIGTA DID THE AUDIT                                  30 cases in which the taxpayer appealed the
                                                         levy action and determined taxpayer requests to
TIGTA initiated this audit to determine whether          appeal can be used to delay collection actions.
levies were effectively issued by Small                  In 28 (93 percent) of 30 cases, the ROs levy
Business/Self-Employed Division revenue                  action was upheld by the Appeals function. In
officers (RO). The audit was included in                 25 (89 percent) of the 28 cases upheld by
TIGTA’s Fiscal Year 2011 Annual Audit Plan               Appeals, the taxpayers did not follow through
and addresses the major management                       with the appeal. Specifically, 16 taxpayers did
challenge of Tax Compliance Initiatives.                 not provide the Appeals Officer with additional
WHAT TIGTA FOUND                                         information that was requested, and nine
                                                         taxpayers did not participate in their hearing
Levy authority allows the RO to work directly            because they withdrew their appeal or did not
with financial institutions and other third parties      attend the scheduled Collection Due Process
to seize taxpayer assets. The ROs are required           hearing in person or by phone. While taxpayers
to issue the taxpayer a Letter 1058, Notice of           are entitled to appeal rights, collection action
Intent to Levy and Notice of Your Right to a             was suspended in these cases for an average of
Hearing, at least 30 days prior to taking levy           five months, and the time Appeals Officers spent
action. Upon receipt of this notice, taxpayers           preparing for these cases was unproductive.
have 30 days in which to pay the tax due or
appeal the potential levy action. After the              WHAT TIGTA RECOMMENDED
enactment of the IRS Restructuring and Reform            Although TIGTA made no recommendations in
Act of 1998, the number of levies issued by the          this report, IRS officials were provided an
ROs dropped from more than 473,000 in Fiscal             opportunity to review the draft report and did not
Year (FY) 1998 to approximately 75,000 in                provide any comments.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         November 21, 2011


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Revenue Officers Took Appropriate Levy Actions
                             but Face Challenges and Delays Bringing Taxpayers Into Compliance
                             (Audit #201130019)

 This report presents the results of our review to determine whether levies were effectively issued
 by Small Business/Self-Employed Division revenue officers. This audit was included in our
 Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Although we made no recommendations in this report, we did provide Internal Revenue Service
 (IRS) officials an opportunity to review the draft report. IRS management did not provide us
 with any report comments.
 Copies of this report are also being sent to the IRS managers affected by the report. Please
 contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
 General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                          Revenue Officers Took Appropriate Levy Actions but Face
                         Challenges and Delays Bringing Taxpayers Into Compliance




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Revenue Officers Initiated Levy Actions in Accordance With
          Established Procedures ................................................................................ Page 4
          Levy Authority Limitations Impacted the Collection of Unpaid Taxes ....... Page 5
          Taxpayers Did Not Always Follow Through When Appealing
          Levy Cases .................................................................................................... Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Glossary of Terms ................................................................ Page 14
          Revenue Officers Took Appropriate Levy Actions but Face
         Challenges and Delays Bringing Taxpayers Into Compliance




                      Abbreviations

CDP             Collection Due Process
FY              Fiscal Year
I.R.C.          Internal Revenue Code
IRS             Internal Revenue Service
RO              Revenue Officer
                         Revenue Officers Took Appropriate Levy Actions but Face
                        Challenges and Delays Bringing Taxpayers Into Compliance




                                               Background

The collection of unpaid tax by the Internal Revenue Service (IRS) generally begins with notices
to the taxpayer, followed by telephone calls and personal contacts by an IRS employee. The
employees who make personal contacts are referred to as revenue officers (RO).1 The ROs
consider the taxpayer’s ability to pay the tax and discuss payment alternatives, such as an
installment agreement. When alternative payment options are not successful, the RO has the
authority to take enforcement action, including levies, liens, and seizures of property. Levy
authority permits the RO to levy a taxpayer’s rights to property, such as wages and bank
accounts, and to work directly with financial institutions and other third parties to seize the
taxpayer’s assets.
While working a taxpayer’s balance due account, the
                                                               Revenue officers are required
ROs identify levy sources through various means,               to provide the taxpayer with a
including conversations with the taxpayer or their             Notice of Intent to Levy before
authorized representative; research of internal systems              taking levy action.
such as the Integrated Data Retrieval System; a national
asset locator tool; or through various external sites such
as the local Department of Motor Vehicles, the United States Postal Service, and various credit
bureaus. Before taking levy action, the RO is required to give the taxpayer a Letter 1058, Notice
of Intent to Levy and Notice of Your Right to a Hearing. The Letter must be given in person, left
at the taxpayer’s home or business, or sent to the taxpayer’s last known address by certified or
registered mail.2 The taxpayer then has 30 days to pay the amount that is owed before property
can be levied.
ROs are instructed to serve notices of levy when there is reason to believe a third party is holding
the taxpayer’s property. There are two types of levies that the ROs prepare using the Integrated
Collection System:
       • Form 668-W, Notice of Levy on Wages, Salary, and Other Income, is used to levy an
         individual’s wages, salary (including fees, bonuses, commissions, and similar items), or
         other income.
       • Form 668-A, Notice of Levy, is used to levy other property that a third party is holding,
         such as bank accounts and business receivables.




1
    See Appendix IV for a glossary of terms.
2
    26 U.S.C. § 6330(a)(2).
                                                                                             Page 1
                   Revenue Officers Took Appropriate Levy Actions but Face
                  Challenges and Delays Bringing Taxpayers Into Compliance



This review was performed at the Headquarters Offices of the Small Business/Self-Employed
Division in New Carrollton, Maryland, during the period April through August 2011. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 2
                                         Revenue Officers Took Appropriate Levy Actions but Face
                                        Challenges and Delays Bringing Taxpayers Into Compliance




                                                        Results of Review

The IRS Restructuring and Reform Act of 19983 (the Act), resulted from widespread allegations
of IRS abuses of taxpayer rights during hearings held by the United States Congress in Calendar
Year 1997. The Act ushered in dramatic changes in tax law as well as in the structure and
functioning of the IRS. The changes affecting the IRS focused mainly on improving customer
service and expanding taxpayer rights, including those related to levies. Figure 1 shows the
number of levies issued by the ROs dropped considerably in the immediate years after the Act
was passed. However, there has been a steady increase since Fiscal Year (FY) 2003, including a
73 percent increase from FY 2009 to FY 2010.
            Figure 1: Number of Levies Issued by the Collection Field Function
                                     (in thousands)


               .

                                            699   691
                                                                                                                                 667
                                      700

                                      600
                                                        473
                                      500
                   Number of Levies




                                                                                                                           386
                                                                                                                     374
                                      400
                                                                                                               310
                                      300                                                                246
                                                                                                   209
                                                                                             168
                                      200                                141   143   143
                                                              107
                                                                    75
                                      100

                                       0




                                                                               Fiscal Year

    Source: Treasury Inspector General for Tax Administration analysis of Collection Report 5000-23.

IRS officials offered two primary reasons for the large increase in the number of levies issued in
FY 2010:

3
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                                                       Page 3
                   Revenue Officers Took Appropriate Levy Actions but Face
                  Challenges and Delays Bringing Taxpayers Into Compliance



   •   Beginning in January 2010, the IRS began counting levies systemically. Prior to this
       change, the ROs manually counted the number of levies issued daily. Management
       believes the systemic change should show a one-time spike in the number of levies issued
       by the ROs and provide a more accurate count in the future.
   •   The Small Business/Self-Employed Division hired more than 1,100 ROs in
       two hiring waves (June and August 2009). By February 2010, the RO’s hired in June had
       completed training and were working full inventories and issuing levies. The Small
       Business/Self-Employed Division hired an additional 400 ROs in February 2010.

Revenue Officers Initiated Levy Actions in Accordance With
Established Procedures
For the 12-month period ending January 31, 2011, the ROs issued 662,076 levies involving
140,786 taxpayers. Taxpayer assets (such as bank accounts) were the levy sources for
546,181 (82 percent) of the levies, while 115,895 (18 percent) of the levies were assessed against
taxpayer wages (continuous wage levy). From the 140,786 taxpayers, we selected a statistically
valid sample of 60 taxpayers to determine the appropriateness of levy actions taken by the ROs.
Because the ROs regularly issue levies concurrently on multiple tax periods for the same
taxpayer, these 60 cases represented 296 tax periods and 1,611 levies. The 296 tax periods
included Taxpayer Delinquent Account balances totaling approximately $5.8 million. We
reviewed each case to ensure the ROs complied with IRS procedures and statutory requirements
when taking levy action.
We determined that in all 60 cases, the levies were issued appropriately and in accordance with
IRS procedures and statutory requirements. Specifically:
   •   All of the taxpayers were properly given a Letter 1058 at least 30 calendar days prior to
       the RO taking levy action. Generally, the notice was sent to the taxpayers’ last known
       address by certified mail, although notice was given in person in some cases.
   •   Levies were released timely when IRS procedures and statutory requirements were met.
   •   Levies were properly released due to financial hardship when the taxpayer provided the
       proper support.
Although the levy actions taken in all of the cases in our sample were in accordance with IRS
procedures and statutory requirements, the overall effectiveness in bringing the taxpayer into
compliance varied.




                                                                                           Page 4
                      Revenue Officers Took Appropriate Levy Actions but Face
                     Challenges and Delays Bringing Taxpayers Into Compliance



Levy Authority Limitations Impacted the Collection of Unpaid Taxes
The IRS recognizes the challenges in balancing the protection of taxpayer rights and bringing
taxpayers into compliance. In the IRS Strategic Plan FY 2009–2013, the IRS Commissioner
stated, “Our first goal is to improve service to taxpayers to make voluntary compliance easier.
Our second and equally important goal is to enforce the law to ensure everyone meets their
obligation to pay taxes. We will be timely in our enforcement actions and expand the
approaches and tools we use in compliance activities.” Accordingly, the IRS must exercise great
care not to emphasize enforcement at the expense of taxpayer rights and customer service. These
goals can create barriers to effective enforcements actions, including the use of levies.
While all the levy actions taken in our case reviews were appropriate and in compliance with IRS
procedures, the impact each levy had on taxpayer compliance varied. Figure 2 shows the impact
of the levies in bringing the taxpayers into compliance for our sampled cases.
             Figure 2: Impact of the Levy Actions on Taxpayer Compliance


                               Maximum Impact           No Impact         Partial Impact



                                      Partial
                                      Impa ct
                                       80%                                        Maximum
                                                                                    Impa ct
                                                                                     10%
                                                                       No Impact
                                                                           10%




       Source: Treasury Inspector General for Tax Administration analysis of sample cases.

We measured the impact the levy had on taxpayer compliance in our sample as follows:
   •    Maximum Impact: The levy resulted in full payment of outstanding balance due in
        six (10 percent) of 60 cases.
   •    Partial impact: The levy resulted in partial payment, an installment agreement, or
        taxpayer contact in 48 (80 percent) of 60 cases. In some instances, the taxpayers fully
        paid older delinquent tax periods in order to meet the criteria to establish an installment
                                                                                              Page 5
                       Revenue Officers Took Appropriate Levy Actions but Face
                      Challenges and Delays Bringing Taxpayers Into Compliance



        agreement for the tax period corresponding to the levy. In other instances, the RO
        determined the taxpayer did not have the ability to pay and closed the case appropriately.
    •   No impact: The levy did not result in any payments and did not result in taxpayer
        compliance in six (10 percent) of 60 cases. In five of these cases, the RO could not locate
        the taxpayer and the levy notices did not result in any payments.
In general, the levy action was an effective tool. We determined the levy action had at least a
partial impact on tax compliance in 90 percent of our sampled cases. However, we identified
some issues that affected the impact of the levy that were not within the control of the RO or the
IRS. Specifically:
    •   Levy notification and the Collection Due Process (CDP) postpone collection actions.
    •   Taxpayer privacy rights create barriers to securing funds from certain levy sources.
    •   The ROs must issue multiple levies to the same sources.
    •   The ROs cannot ensure third parties comply with levy notices.

Levy notification and the CDP postpone collection actions
While the enactment of the Restructuring and Reform Act of 1998 did not change the power of
the levy, it required the RO to issue an additional notice prior to levy action. A RO cannot take
levy action until 30 days after providing Letter 1058 to the taxpayer. Also during this 30-day
window, the taxpayer has the right to file a request for an appeal, known as a CDP hearing.4 The
CDP provisions give taxpayers an opportunity for an independent review to ensure the levy
action by the RO is warranted and appropriate. The CDP also provides the taxpayer with another
opportunity to propose a collection alternative to the levy action.
Allowing the taxpayer time before taking levy action provides the taxpayer some protection but
it also creates some risk. Specifically, Letter 1058 and the associated 30-day window provides
taxpayers with the time to potentially liquidate or dispose of any property or funds identified by
the RO that are subject to levy. In addition to the 30-day window, the IRS issued interim
guidance in September 2010 which clarified procedures relating to the issuance of the
Letter 1058. The interim guidance stated, “For Business Master File or Business Master
File/Individual Master File combination taxpayers, after the Letter 1058 issuance, allow
15 additional days after the 30 day period before levying in case the taxpayer mails a request for
a hearing on the 30th day.” Accordingly, the ROs must wait a total of 45 days after issuing the
Letter 1058 before taking levy action on Business Master File and Business Master
File/Individual Master File combination taxpayers, which could increase the risk that the
property is no longer available.



4
 A taxpayer still has the right to request a hearing after the 30-day window has passed, known as an equivalent
hearing.
                                                                                                            Page 6
                        Revenue Officers Took Appropriate Levy Actions but Face
                       Challenges and Delays Bringing Taxpayers Into Compliance



In addition, taxpayers’ requests for a CDP hearing can further delay collection action because the
ROs are prohibited from taking levy action or further collection action until the appeal process is
completed. Generally, it can take on average five months from the time an appeal request is
received to the time the appeals hearing is conducted. This process can have the unintended
effect of providing taxpayers with more time to potentially liquidate or dispose of property or
funds that are subject to levy.

Taxpayer privacy rights create barriers to securing funds from certain levy
sources
Generally, if the taxpayer does not request an appeal within the 30-day window the RO can take
levy action. Both the Internal Revenue Code (I.R.C.) and IRS procedures prioritize securing
delinquent tax payments from taxpayer funds over taxpayer personal property. There are several
restrictions on seizing taxpayers’ personal property that have eliminated the vast majority of
seizures. During FY 2010, the ROs issued more than 667,000 levy notices on assets such as
bank accounts and wages, but made only 605 seizures of property such as houses and
automobiles.
Federal law 5 prohibits the IRS from determining whether a taxpayer’s account contains assets or
funds to provide for a successful levy before taking levy action. In practice, the ROs levy any
available levy source identified, with no knowledge of whether the associated accounts contain
funds. This practice has the unintended result of many levies being issued on the same bank
accounts or to the same third parties where the taxpayer does not have any financial assets.

The ROs must issue multiple levies to the same sources
When taking levy action on potential levy sources, the ROs mail the Forms 668-A or
Forms 668-W to a third party. The law requires that the timing of the levy match exactly the
time the funds are available. Specifically, if a levy notice is sent to a third party (such as a
taxpayer’s customer or vendor), the funds subject to levy must be owed to the taxpayer on the
day the levy is received. Similarly, levies on financial institutions, such as banks, attach only to
funds within a taxpayer’s account on the day the Notice of Levy is received by the financial
institution. The IRS must continuously levy these institutions to obtain rights to any future funds
deposited by the taxpayer. Our sample results indicated this may also be increasing the number
of levies issued annually, but not necessarily resulting in a comparable increase in tax revenue.

The ROs cannot ensure third parties comply with levy notices
Levy actions can be effective only when the third party complies with the Notice of Levy.
I.R.C. Section (§) 6332(a) requires the third party to surrender any property of the taxpayer
subject to the levy. Generally the property must be surrendered to the IRS immediately or within

5
    12 U.S.C. § 3402 and § 3403.
                                                                                             Page 7
                   Revenue Officers Took Appropriate Levy Actions but Face
                  Challenges and Delays Bringing Taxpayers Into Compliance



a reasonable time. However, the statute does make exceptions for banks and insurance
companies. I.R.C. § 6332(c) allows banks 21 days to honor the levy, while I.R.C. § 6332(b)
gives insurance companies 90 days to comply.
Many of the Notices of Levy that are sent to third parties go unanswered, and the RO does not
know if funds were not available or if the third party simply disregarded the levy notice. In
many cases, third parties that receive the Notice of Levy may be unfamiliar with the levy process
and may either take no action, consult with the taxpayer, or contact the RO. As a result, the ROs
must spend additional time resending levy notices to unresponsive third parties.
Management Actions: The Small Business/Self-Employed Division recognized the barriers the
ROs face when taking levy action and has taken some corrective action. The Small
Business/Self-Employed Division is preparing a legislative change proposal to expand
continuous levies on additional income sources. I.R.C. § 6331(e) and § 6331(h) permit the
continuous levy of salary and wages and certain other payments from the time of issuance until
the levy is released. The IRS has identified four additional categories of non-wage income that
could be levied in a manner similar to wages and salary: non-employee compensation, rental
income, royalties, and fishing boat proceeds. These income sources totaled approximately
$1.4 trillion for Tax Year 2009. The proposal would expand the continuous levy authority to
these additional categories of income and may increase revenue and assist taxpayers in becoming
compliant through the use of additional collection options.

Taxpayers Did Not Always Follow Through When Appealing Levy
Cases
During the 30-day period after the taxpayer is notified of the IRS’s intent to levy, the taxpayer
may request a hearing with the IRS Appeals function to appeal the proposed levy action. To
request a hearing, the taxpayer must complete a Form 12153, Request for a Collection Due
Process or Equivalent Hearing, which is provided to the taxpayer along with Letter 1058. When
requesting an appeal, the taxpayer should identify his or her alternatives to the levy action or
reasons for disagreeing with the proposed levy action. While the case is under appeal, the RO
must suspend all collection activity on the periods included in the CDP hearing.
We identified 10,835 cases from the Appeals Centralized Database System, pertaining to
appealed levy actions closed between February 1, 2010, and January 31, 2011. These cases
represented 8,639 different taxpayers. We reviewed a statistically valid sample of 30 of these
cases and determined the levy actions taken by the ROs were in compliance with IRS
procedures. In 28 (93 percent) of the 30 cases, the Appeals function upheld the ROs’ levy
actions. For three of the 28 cases upheld, the taxpayers cooperated with the Appeals Officers.
However, for 25 (89 percent) of the 28 cases upheld, the taxpayers requested the appeal but did
not follow through with the appeal. Specifically:


                                                                                          Page 8
                    Revenue Officers Took Appropriate Levy Actions but Face
                   Challenges and Delays Bringing Taxpayers Into Compliance



   •   16 (64 percent) of the 25 taxpayers did not provide the Appeals Officer with additional
       information that was requested.
   •   9 (36 percent) of the 25 taxpayers (or their representatives) did not participate in their
       hearing because they withdrew their appeal or did not attend the scheduled Collection
       Due Process hearing in person or by phone.
In addition, for 11 (44 percent) of the 25 cases, the case files indicated that no collection
alternative was provided to the Appeals Officer on the taxpayers’ requests for an appeal. When
requesting an appeal, the taxpayer has to check a box on Form 12153 indicating the reason for
appeal and a separate box indicating a collection alternative he or she would like to discuss at the
CDP hearing. Collection alternatives on this Form include:
   •   Installment Agreement.
   •   Offer in Compromise.
   •   I Cannot Pay Balance.
However, taxpayers are not required to provide documentation supporting their collection
alternative. We were advised that the IRS considered using language requiring taxpayers to
provide supporting documentation with their appeals request but that language was not adopted.
For the 25 cases in our sample for which the taxpayer did not follow through with the appeals
process, collection action was suspended for an average of five months. In addition, the time
that the Appeals Officers spent preparing for these 25 cases was unproductive. The Appeals
Officers spent an average of 6.4 hours on each of these cases.




                                                                                              Page 9
                       Revenue Officers Took Appropriate Levy Actions but Face
                      Challenges and Delays Bringing Taxpayers Into Compliance



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether levies were effectively issued by Small
Business/Self-Employed Division ROs.1 To accomplish this objective, we:
I.      Evaluated IRS policies, procedures, goals, and monitoring of the levy program.
        A. Reviewed revisions to IRS procedures and other guidance issued.
        B. Determined goals and methods used to monitor the levy program based on interviews
           of executives and analysts in the Small Business/Self-Employed Division’s
           Collection function.
        C. Contacted IRS Office of Research Analysis and Statistics to discuss any studies
           performed of the levy program and any current or planned levy studies.
        D. Judgmentally selected one (out of 465) Collection Field function office and
           interviewed group managers to determine their policies for levies and practices in
           monitoring levies by the ROs in their groups.
II.     Determined whether the ROs were complying with established procedures for levy
        actions.
        A. Analyzed data from the universe of open Integrated Collection System cases from a
           March 9, 2011, extract to determine the number of open RO cases with and without
           levies in all Collection Field function offices.
        B. Selected a statistically valid sample of 2712 RO cases from a universe of
           140,786 taxpayers with levies between February 1, 2010, and January 31, 2011, to
           determine if the levy actions taken were appropriate and in accordance with IRS
           procedures. For each case, we determined whether the actions taken by the ROs were
           in compliance with IRS procedures and statutory requirements. When applicable, we
           also evaluated the controls over levy releases to ensure timely release when levy
           release requirements were met. As part of our case review, we validated the
           information from the Integrated Collection System by reconciling specific items with
           data from the Individual Master File and Business Master File.


1
  See Appendix IV for a glossary of terms.
2
  Our sampling plan was based on a confidence level of 90 percent, an expected error rate of 50 percent, and a
precision of ±5 percent resulting in a minimum sample size of 271. Based on the review of the first 60 cases
resulting in no exceptions, we concluded our case reviews and did not progress through the remainder of the sample.
                                                                                                          Page 10
                       Revenue Officers Took Appropriate Levy Actions but Face
                      Challenges and Delays Bringing Taxpayers Into Compliance



        C. Analyzed data from the universe of Appeals Centralized Database System Collection
           Appeals Program and CDP levy cases to determine the number of cases pertaining to
           Collection Field function levy actions.
             1. Selected and reviewed a statistically valid sample of 2633 taxpayers with closed
                CDP or Collection Appeals Program levy cases within the Appeals Centralized
                Database System between February 1, 2010, and January 31, 2011, to determine
                whether the levy actions were appropriate and compliant with procedures. For
                each case, we determined the reason for the taxpayer’s appeal, the appropriateness
                of the ROs levy action, and whether the levy was sustained and why.
             2. As part of our case review, we validated the information from the Appeals
                Centralized Database System by reconciling specific items with data from the
                Individual Master File and Business Master File.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division’s policies, procedures, and practices for taking levy action. We evaluated these controls
by reviewing a sample of open collection and appealed cases that included levy action.




3
  Our sampling plan was based on a confidence level of 90 percent, an expected error rate of 50 percent, and a
precision of ±5 percent resulting in a minimum sample size of 263. Based on the review of the first 30 cases
resulting in no exceptions, we concluded our case reviews and did not progress through the remainder of the sample.
                                                                                                          Page 11
                  Revenue Officers Took Appropriate Levy Actions but Face
                 Challenges and Delays Bringing Taxpayers Into Compliance



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Michael Della Ripa, Lead Auditor
Curtis Kirschner, Senior Auditor
Lou Zullo, Senior Auditor
Frank Maletta, Auditor




                                                                                      Page 12
                  Revenue Officers Took Appropriate Levy Actions but Face
                 Challenges and Delays Bringing Taxpayers Into Compliance



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection Field function, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Conrol OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 13
                    Revenue Officers Took Appropriate Levy Actions but Face
                   Challenges and Delays Bringing Taxpayers Into Compliance



                                                                                    Appendix IV

                                 Glossary of Terms

Appeals Centralized Database System – Used by Appeals Officers, Settlement Officers,
managers, and technical analysts to track case receipts, record case time, document case actions,
and monitor the progress of the Appeals function workload.
Area Office – A geographic organizational level used by IRS business units and offices to help
their specific types of taxpayers understand and comply with tax laws and issues.
Balance Due Account – Occurs when the taxpayer has an outstanding liability for taxes,
penalties, and/or interest.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Calendar Year – A 12-consecutive-month period ending on the last day of December.
Collection Field Function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Installment Agreement – Arrangements by which the IRS allows taxpayers to fully pay
liabilities over time in smaller manageable payments.
Integrated Collection System – An information management system designed to improve
revenue collections by providing the ROs access to the most current taxpayer information while
in the field using laptop computers for quicker case resolution and improved customer service.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information. It works in conjunction with a taxpayer’s account records.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
National Asset Locator Tool – Provides access to public records such as real estate
transactions, real property, corporate officers, vehicles, and aircraft, as well as information on
people and businesses.

                                                                                             Page 14
                   Revenue Officers Took Appropriate Levy Actions but Face
                  Challenges and Delays Bringing Taxpayers Into Compliance



Offer in Compromise – An agreement between a taxpayer and the Federal Government that
settles a tax liability for payment of less than the full amount owed.
Revenue Officer – Employees in the Collection Field function who attempt to contact taxpayers
and resolve collection matters that have not been resolved through notices sent by the IRS
campuses or the Automated Collection System.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Tax Year – The 12-month period for which tax is calculated. For most individual taxpayers, the
tax year is synonymous with the calendar year.
Taxpayer Delinquent Account – A balance due account of a taxpayer. A separate taxpayer
delinquent account exists for each tax period




                                                                                              Page 15
